TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Improved Toll-Free Telephone Services
                        Should Make It Easier for Taxpayers
                            to Obtain Assistance During
                              a Correspondence Audit



                                           August 17, 2012

                                Reference Number: 2012-30-093




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.




Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


IMPROVED TOLL-FREE TELEPHONE                        For example, one major change was replacing
SERVICES SHOULD MAKE IT EASIER                      the geographically based routing system with a
FOR TAXPAYERS TO OBTAIN                             nationwide skill-based routing network that
ASSISTANCE DURING A                                 distributes calls to the next available IRS
                                                    telephone assistor. This change makes it easier
CORRESPONDENCE AUDIT
                                                    for taxpayers to reach examiners and receive
                                                    needed information on their first call.
Highlights                                          TIGTA also found that examiners are trained
                                                    and monitored to ensure they provide accurate
Final Report issued on August 17, 2012              information to taxpayers, but they do not
                                                    consistently return calls when requested by or
Highlights of Reference Number: 2012-30-093         promised to taxpayers. TIGTA identified 20 calls
to the Internal Revenue Service Commissioner        during which the taxpayer either requested a
for the Small Business/Self-Employed Division.      return call or was promised one from a statistical
                                                    sample of calls the SB/SE Division received
IMPACT ON TAXPAYERS                                 from October 31 through December 9, 2011.
The Intelligent Contact Management System is        For 14 of the 20 calls, there was no evidence
a toll-free call routing system that the Small      that the call was returned.
Business/Self-Employed (SB/SE) Division             WHAT TIGTA RECOMMENDED
incorporated into its correspondence audit
process to make it more responsive and less         TIGTA recommended that the IRS modify quality
burdensome from the taxpayer’s point of view.       review procedures to include a requirement that
However, the SB/SE Division is not consistently     quality reviewers and first-line managers
returning telephone calls to taxpayers and needs    evaluate if examiners are returning calls. In
to take action to increase the likelihood of        addition, the IRS should ensure quality
achieving the expected benefits of the new          reviewers and first-line managers are
telephone system.                                   knowledgeable of how the Correspondence
                                                    Examination Automation Support System can be
WHY TIGTA DID THE AUDIT                             used for evaluating whether examiners are
This audit was initiated at the suggestion of the   returning calls.
IRS to determine the progress that the SB/SE        The IRS agreed with both recommendations and
Division is making to take advantage of the         stated it has completed implementation of the
opportunities offered by the Intelligent Contact    necessary corrective actions to address the
Management System. Under the old telephone          problems TIGTA identified.
system, the IRS reported finding that 70 percent
of the calls to examiners were answered by
voicemail, and 39 percent of these calls were
not promptly returned. Moreover, 62 percent of
the taxpayers were repeat callers. Also, the
customer satisfaction survey results suggested
that the IRS needs to make it easier to get
through to the IRS on the telephone for
assistance.
WHAT TIGTA FOUND
The numerous benefits the Intelligent Contact
Management System offers represent a
substantial change from the prior capabilities
that the old toll-free call system provided to
taxpayers involved in a correspondence audit.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 17, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improved Toll-Free Telephone Services
                             Should Make It Easier for Taxpayers to Obtain Assistance During
                             a Correspondence Audit (Audit # 201130052)

 This report presents the results of our review to determine the progress the Small Business/
 Self-Employed Division is making to take advantage of the opportunities that the Intelligent
 Contact Management System offers for enhancing the correspondence audit process. This
 review was conducted in response to a suggestion by the Commissioner, Internal Revenue
 Service. The review is part of our Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (213) 894-4470
 (Ext. 128).
                                    Improved Toll-Free Telephone Services Should
                                        Make It Easier for Taxpayers to Obtain
                                      Assistance During a Correspondence Audit




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Intelligent Contact Management System Is
          Intended to Help Make Audits More Responsive
          and Less Burdensome ................................................................................... Page 3
          Examiners Are Trained and Monitored to Ensure They
          Provide Accurate Information to Taxpayers, but They
          Do Not Consistently Return Calls................................................................. Page 6
                    Recommendations 1 and 2: ................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measure ................................................................ Page 13
          Appendix V – Summary of Expected Benefits From the Intelligent
          Contact Management System ....................................................................... Page 15
          Appendix VI – Overview of the Customer Service Quality
          Measurement System .................................................................................... Page 17
          Appendix VII – Customer Satisfaction Telephone Survey Questions.......... Page 19
          Appendix VIII – Glossary of Terms ............................................................. Page 20
          Appendix IX – Management’s Response to the Draft Report ...................... Page 21
        Improved Toll-Free Telephone Services Should
            Make It Easier for Taxpayers to Obtain
          Assistance During a Correspondence Audit




               Abbreviations

EQRS     Embedded Quality Review System
FY       Fiscal Year
ICMS     Intelligent Contact Management System
IRS      Internal Revenue Service
JOC      Joint Operations Center
LOS      Level of Service
NQRS     National Quality Review System
SB/SE    Small Business/Self-Employed
                                Improved Toll-Free Telephone Services Should
                                    Make It Easier for Taxpayers to Obtain
                                  Assistance During a Correspondence Audit




                                              Background

The Intelligent Contact Management System (ICMS) is a toll-free call routing system that
supports the Internal Revenue Service’s (IRS) vision to make it easier for taxpayers to meet their
responsibility to pay taxes by providing them with quality service, taking steps to better
understand issues from the taxpayer perspective, and reducing taxpayer burden. The ICMS takes
advantage of modern technologies by linking multiple IRS call centers1 into a single “virtual”
call center that is accessed through one toll-free number. It is also part of a much larger suite of
toll-free telephone assistance lines that millions of individuals, businesses, and tax practitioners
access annually when seeking help in understanding tax laws and meeting their tax obligations.
Incorporated into the Small Business/Self-Employed (SB/SE) Division Correspondence
Examination Program in Fiscal Year (FY) 2010, the ICMS is a component in an overall effort to
make the IRS correspondence audit process more responsive and less burdensome for taxpayers.
The SB/SE Division staffs the Correspondence Examination Program with about 880 examiners
who are trained to answer incoming calls2 for a portion of their workday. The IRS anticipates
taxpayers and tax practitioners alike will find the ICMS is an improvement over the Program’s
old toll-free system. Under its old telephone system, the IRS determined that:
        70 percent of the calls to examiners were answered by voicemail, and 39 percent of these
         calls were not returned within 24 hours.
        62 percent of the taxpayers were repeat callers. In addition, 28 percent of the repeat
         callers wanted to know if the information they mailed was received, and 26 percent
         wanted to know what information was needed or if the documentation they provided
         was sufficient.
        13 percent of the taxpayers called more than eight times before their tax issues were
         resolved.
To monitor the impact that improvement efforts are having on the correspondence audit process,
the IRS contracted with the Pacific Consulting Group to compile and report the results from
surveying a national sample of taxpayers audited through correspondence. Issued in July 2011,
the survey3 showed that approximately 48 percent of taxpayers were satisfied with the service
they received during their correspondence audit, giving an overall satisfaction rating of


1
  See Appendix VIII for a glossary of terms.
2
  To provide clarity in this report and differentiate between the examiner’s roles as examiner and telephone assistor,
we will refer to them as telephone assistors when their duties are primarily concerned with the ICMS.
3
  IRS, Internal Revenue Service Customer Satisfaction Survey, Correspondence Exam (CCE) SB/SE National
Report, Covering January through March 2011, with Annual Results (Jul. 2011).
                                                                                                               Page 1
                           Improved Toll-Free Telephone Services Should
                               Make It Easier for Taxpayers to Obtain
                             Assistance During a Correspondence Audit



somewhat satisfied or very satisfied. While taxpayers indicated that they were most satisfied
with the courtesy and professionalism of IRS employees, the survey results suggested that,
among other things, the IRS needs to make it easier to get through to the IRS on the telephone
for assistance and also to reduce the overall length of the audit (from start to finish).
A correspondence audit is largely handled through the mail and typically begins with the IRS
mailing a computer-generated letter to the taxpayer that outlines the audit process, identifies one
or more items on the tax return being questioned, and requests supporting information to resolve
the questionable items.
Once returned, examiners review the information to assess whether it resolves the questions. If
the questions can be sufficiently answered by the information provided, the audit is generally
closed without any tax changes. If not, the taxpayer is sent a letter requesting more information
or proposing a tax change. At this point, the taxpayer can agree with the examiner, provide the
examiner with clarifying information, or appeal the proposed tax change to the IRS’s Office of
Appeals. In instances where the taxpayer does not respond to the IRS’s letters, the examiner’s
proposed tax changes are assessed by default, and the taxpayer will generally have to petition the
court system to contest the assessment.
This review was performed at the IRS Joint Operations Center (JOC) in Chamblee, Georgia, and
the SB/SE Division Examination function in New Carrollton, Maryland, during the period
November 2011 through April 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                             Page 2
                                Improved Toll-Free Telephone Services Should
                                    Make It Easier for Taxpayers to Obtain
                                  Assistance During a Correspondence Audit




                                      Results of Review

Incorporating the ICMS into the correspondence audit process was a noteworthy IRS action that
offers benefits intended to help make the process more responsive and less burdensome for
taxpayers. The IRS provided training and monitored telephone assistors to ensure they provided
accurate information to taxpayers. However, examiners do not consistently return calls that are
requested by, or promised to, taxpayers.
In considering the significance of incorporating the ICMS into the correspondence audit process,
it is important to recognize that the ICMS was implemented primarily to make it easier for
taxpayers to receive needed information on their first call. It is equally important to recognize
that the ICMS will likely have little, if any, substantial impact on the length of the audit process.
Taxpayers, tax practitioners, and the IRS have all expressed concerns about the amount of time it
takes to complete a correspondence audit.

The Intelligent Contact Management System Is Intended to Help Make
Audits More Responsive and Less Burdensome
The numerous benefits4 the ICMS offers represent a substantial change from the prior
capabilities that the old IRS toll-free system provided to taxpayers involved in a correspondence
audit. For example, one major change was replacing the geographically based routing system
with a nationwide skill-based routing network that distributes calls to the next available IRS
telephone assistor trained to handle the question identified based on the taxpayer’s response to
the telephone prompts. This change eliminates the need to leave a voice message, which the IRS
admitted was problematic, and could result in fewer repeat calls.
Providing taxpayers with the ability to speak with a telephone assistor during an audit is a
particularly important benefit, given the survey results that showed taxpayers complained about
the difficulty they had getting through to the IRS on the telephone. It also enhances the IRS’s
ability to deliver on its customer service policy of providing one-stop service, which it defines as
the resolution of issues during the taxpayer’s initial call or as a direct result of that contact.
Moreover, the IRS is auditing far more taxpayers through the mail than in previous years, which
further highlights the need to ensure taxpayers can quickly and easily obtain assistance through
the telephone because it is their principal human contact point with the IRS during the audit.
Examination function statistics for FY 2011 showed that the IRS examined approximately
1.2 million correspondence audits of individual returns and, in the process, identified
approximately $8.7 billion of additional taxes that may be owed. These statistics represent

4
    See Appendix V for a summary of expected benefits from the ICMS.
                                                                                              Page 3
                                   Improved Toll-Free Telephone Services Should
                                       Make It Easier for Taxpayers to Obtain
                                     Assistance During a Correspondence Audit



75 percent of all audits of individual returns and 59 percent of the additional taxes recommended
from those audits that the IRS closed in FY 2011. By comparison, the IRS closed approximately
538,000 correspondence audits of individual returns in FY 2001 and recommended
approximately $1.4 billion in additional taxes from these audits.
After taxpayers access the correspondence exam toll-free number, the ICMS immediately
provides a recorded menu prompt to direct them to identify a language preference of English or
Spanish. This feature supports the IRS’s policy and commitment to provide quality service to
each taxpayer, including those who lack a full command of the English language. Once a
language preference is selected, a digitized voice menu is offered and the system responds to the
taxpayer’s touch-tone response. The taxpayer’s selection can initiate options that include access
to a menu of automated services or to speak with a telephone assistor. As shown in Figure 1, the
major automated services available to taxpayers include an option to rate the service received5
from the IRS by participating in an automated survey over the telephone. Although the
responses from the survey6 are captured at the end of the call, the results were not available for
us to evaluate as the data collected by the contractor were under IRS management review and not
yet available for dissemination. However, the responses will be a key source of feedback for the
IRS to use in determining the impact the ICMS is having on making the correspondence audit
process more responsive and less burdensome for taxpayers.
           Figure 1: Major Automated Services the ICMS Provides to Taxpayers

       Provides IRS addresses and fax numbers.
       Answers questions about the information individuals receive from the IRS.
       Advises on IRS privacy and disclosure rules.
       Provides information about the Earned Income Tax Credit and other items pertaining to
       individual returns.
       Informs taxpayers how they can obtain representation.
       Explains IRS time periods and the process for handling and responding to the correspondence it
       receives.
      Provides the opportunity to rate the service received from the IRS.
     Source: Treasury Inspector General for Tax Administration analysis of the IRS’s call system flowchart.

The ICMS assistance line is divided into categories called “applications,” each of which is
staffed with a group of telephone assistors who received specialized training to assist taxpayers
with specific tax issues. When a taxpayer indicates a preference for live assistance, the network
determines the optimum destination for the call by reviewing factors such as telephone assistor


5
    A sample of callers are offered the opportunity to take the customer satisfaction survey.
6
    The customer satisfaction telephone survey questions are shown in Appendix VII.
                                                                                                              Page 4
                                 Improved Toll-Free Telephone Services Should
                                     Make It Easier for Taxpayers to Obtain
                                   Assistance During a Correspondence Audit



availability, the issue involved, and the minimum expected delay. If all telephone assistors are
busy, calls are placed in a queue until a telephone assistor becomes available. While in the
queue, the network provides instructions on a variety of tax topics through a series of educational
scripts. The network continually tracks the status of each call until the taxpayer disconnects.
In the first full fiscal year (FY 2011) of using the ICMS, the IRS received about 961,000 calls
and, in the process, met its Level of Service (LOS) goal of enabling 71.6 percent of the calls to
be answered by a telephone assistor or informational message. As shown in Figure 2, the IRS is
on track to meet or exceed its FY 2012 LOS performance goal.
                    Figure 2: ICMS Performance Statistics and Measures
                 for FY 2011 and FY 2012 (October Through December 2011)

                                                                                              FY 2012
                Performance Statistics                             FY 2011                 (1st Quarter only)

        Total Calls Received                                        960,882                    167,132
          Calls Received but Not Allowed Into
                                                                    22,020                        3,389
          the ICMS7
        Total Calls Allowed Into the ICMS                           938,862                    163,743
          Calls Abandoned During the
                                                                    134,237                     26,291
          Informational Message Phase
          Calls Abandoned While in the Queue
                                                                    213,122                     36,385
          Waiting for a Telephone Assistor
        Total Calls Answered                                        591,503                    101,067
          Telephone Assistor Calls Answered                         527,050                     90,244
          Automated Calls Completed                                  64,453                     10,823



                 Performance Measure                         Actual        Goal          Actual           Goal
        LOS (percentage)                                       71.6           70           71.8            72
       Source: SB/SE Division’s JOC.

Despite achieving its goal in FY 2011, the LOS realized by the SB/SE Division’s
Correspondence Examination Program under its old toll-free system was higher. However,
according to IRS officials, this occurred because the old system allowed callers to leave



7
  This consists of calls received outside of the 7 a.m. to 7 p.m. telephone service operation, or calls affected by
telephone network problems, or emergency closure of the telephone system.
                                                                                                                 Page 5
                                  Improved Toll-Free Telephone Services Should
                                      Make It Easier for Taxpayers to Obtain
                                    Assistance During a Correspondence Audit



messages, and these messages were included as completed calls when calculating the LOS.
Therefore, reliable comparisons between the two systems are very difficult, if not impossible.

Examiners Are Trained and Monitored to Ensure They Provide
Accurate Information to Taxpayers, but They Do Not Consistently
Return Calls
The basic training curriculum for correspondence examiners spans an average of 5½ weeks of
formal in-classroom training that teaches examiners about the tax laws, examination procedures,
and researching IRS systems. As part of basic training, examiners also learn how to serve as
telephone assistors by listening to live calls to observe how experienced telephone assistors
handle and answer calls and by participating in mock telephone calls and role play activities.
After completing the basic training curriculum, examiners receive on-the-job training for about
3½ weeks. During this time, examiners are assigned a coach as a mentor who also oversees their
development and transition to a full-time examiner. The coach quality reviews 100 percent of
the examiner’s case work and listens to live telephone calls while the examiner is assisting on the
telephone. A coach typically works with three trainees and is responsible for reviewing their
audit work and providing performance feedback and assistance, as needed. The coach notifies
the manager when the new hire is ready to work independently. However, if at any time the
manager determines that additional on-the-job training is needed for the telephones, the manager
can provide more training time.
After completing on-the-job training, examiners continue to receive training in a number of
ways. For example, IRS officials state that staff meetings and conference calls are used as
forums to provide examiners information on emerging tax issues, implementation of new
compliance projects, and changes in operating procedures.

Calls and audit case files are monitored for quality at both the local and national
level
As reflected in the IRS’s local and national quality measurement systems, the IRS defines quality
telephone service through five standards: 1) Timeliness, 2) Professionalism, 3) Customer
Accuracy, 4) Regulatory/Statutory Accuracy, and 5) Procedural Accuracy. Each quality standard
also has several key elements that elaborate on the overall standard.8
At the local level, the standards have been incorporated into the Embedded Quality Review
System (EQRS) that first-line managers use when listening to live or recorded calls handled by
the telephone assistors they supervise. Results from this type of monitoring are documented in
the EQRS, where they can be shared with the individual telephone assistor and used to point out


8
    See Appendix VI for more details on the quality standards and their associated elements.
                                                                                               Page 6
                               Improved Toll-Free Telephone Services Should
                                   Make It Easier for Taxpayers to Obtain
                                 Assistance During a Correspondence Audit



the positive aspects of the individual’s performance as well as potential opportunities for
improvement. At the national level, the standards are included in the National Quality Review
System (NQRS) that SB/SE Division quality reviewers use as a mechanism for measuring how
well telephone assistors in each of the five IRS campuses handle calls. This type of monitoring
involves a national sample of recorded calls and is designed for identifying and communicating
areas of concern to top management so corrective actions can be taken, if needed.
In addition to monitoring and evaluating the quality of service during phone calls, the
correspondence audit case files are evaluated locally and nationally as part of the NQRS and
EQRS processes. During these evaluations, NQRS reviewers and first-line managers use the
quality standards to assess elements such as timeliness of actions, procedural accuracy, and
professionalism reflected in the audit case file documentation.

A mechanism is needed to provide adequate assurance that calls are returned
when requested by, or promised to, taxpayers
We reviewed a statistically valid stratified random sample of 150 of 33,672 calls that the IRS
recorded from October 31 through December 9, 2011.9 The sample included 75 calls each from
telephone Applications 861 and 865.10 Using the IRS’s telephone national quality standards, we
analyzed the calls for timeliness, professionalism, customer accuracy, regulatory/statutory
accuracy, and procedural accuracy.
Overall, our results were in line with the following percentages reported by the NQRS quality
reviewers for the first quarter of FY 2012. IRS reported that telephone assistors:
       Properly identified themselves at the start of calls by name and badge number (99 percent
        of the time).
       Were courteous to the taxpayers during the calls (94 percent of the time).
       Provided a correct and complete response or resolution to the taxpayer (95 percent of the
        time).
While NQRS quality reviewers are doing a good job of applying the quality standards to the calls
they evaluate, none of the quality review processes at either the local or national level
specifically require assessing whether examiners are returning telephone calls when requested
by, or promised to, taxpayers. Of the 150 calls in our sample, we identified 20 calls during
which the taxpayer either requested a return call from the examiner or was promised one from
the assistor. For 14 of these calls, there was no evidence that a return call was ever made.


9
  Nine of the 150 calls reviewed were inaudible due to technical recording problems but were included in the sample
so our results would reflect a more conservative estimate.
10
   The population for Applications 861 and 865 during this time period was 21,680 and 11,992, respectively. We
selected these two applications because, during FY 2011, they accounted for about 75 percent of the total SB/SE
Division correspondence examination calls answered.
                                                                                                           Page 7
                                Improved Toll-Free Telephone Services Should
                                    Make It Easier for Taxpayers to Obtain
                                  Assistance During a Correspondence Audit



        For seven calls, the telephone assistor created an “action note” in the Correspondence
         Examination Automation Support system. The action note initiates a systemic
         notification to the assigned examiner and his or her immediate manager that the taxpayer
         is expecting a return call.
        For five calls, the telephone assistor did not create an action note as required. Therefore,
         no examiner or manager would know a return call was requested.
        For two calls, the telephone assistor specifically told the taxpayer that he or she would
         call them back directly, but there was no evidence showing a return call was made.
The SB/SE Division concurred with the facts in all 14 cases. As discussed in Appendix IV,
based on our sample results, we estimate that 3,272 taxpayers who called the IRS from
October 31 through December 9, 2011, did not receive a requested return call. Assuming the
same error rate is applied to all calls during FY 2012, we forecast11 that potentially
35,591 telephone calls will not be returned by the SB/SE Division’s Correspondence
Examination Program.

Recommendations
The Director, Campus Compliance Services, SB/SE Division, should:
Recommendation 1: Modify procedures in the quality review measurement systems to
include a requirement that reviewers and first-line managers evaluate whether examiners are
returning calls when requested by, or promised to, taxpayers.
         Management’s Response: IRS management agreed with this recommendation and
         stated that the IRS has updated guidance in the quality review measurement systems to
         ensure that reviewers address whether requested return calls have been made.
Recommendation 2: Ensure that all reviewers, including first-line managers, are
knowledgeable of the Correspondence Examination Automation Support system and how its
information can be used to evaluate how well examiners are returning calls when requested by,
or promised to, taxpayers.
         Management’s Response: IRS management agreed with this recommendation and
         stated that the IRS has issued multiple reminders to all functions and quality reviewers
         emphasizing that examiners must complete a taxpayer’s request for a call back within



11
  A forecast is a best guess of future occurrences. It is weaker than a statistical estimate based upon a probability
sample because it must make assumptions about future trends. Our forecast assumed that the call volume for the last
six months of FY 2012 would be at the same level as the first six months of FY 2012 and that the statistically valid
sample error rate from a 40-day service period is representative over the entire FY 2012.
                                                                                                            Page 8
                   Improved Toll-Free Telephone Services Should
                       Make It Easier for Taxpayers to Obtain
                     Assistance During a Correspondence Audit



three business days. In addition, the message advised that all action notes in the
Correspondence Examination Automation Support system must be acted upon.




                                                                                     Page 9
                                 Improved Toll-Free Telephone Services Should
                                     Make It Easier for Taxpayers to Obtain
                                   Assistance During a Correspondence Audit



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the progress the SB/SE Division is making
to take advantage of the opportunities that the ICMS offers for enhancing the correspondence
audit process. Unless otherwise noted, our limited tests of the reliability of recorded calls
obtained from the JOC1 did not identify any errors. We tested the reliability of the data by
scanning the data received and reconciled the count to the call volume.2 In addition, we listened
to a judgmental sample3 of recorded telephone calls and researched the Correspondence
Examination Automation Support system to verify the existence of the calls. To accomplish the
objective, we:
I.       Interviewed SB/SE Division Examination function management and JOC management to
         identify the specific benefits the SB/SE Division Correspondence Examination Program
         is trying to achieve by implementing the ICMS and the goals and measures that have
         been established to measure success. Additionally, we obtained information on the ICMS
         call routing and the call data for FY 2011 and the first quarter of FY 2012.
II.      Obtained information on the SB/SE Division training curriculum for correspondence
         examiners.
III.     Obtained and analyzed the results from the IRS’s NQRS and EQRS telephone service
         review results from FY 2011 and the first quarter of FY 2012.
IV.      Validated the data extract of calls answered by IRS telephone assistors assigned to
         Applications 861 and 865 from October 31 through December 9, 2011, by comparing the
         record count to the JOC’s call volume data.
V.       Consulted the Treasury Inspector General for Tax Administration’s contracted
         independent statistician on the sample selection plan of calls answered by IRS telephone
         assistors assigned to Applications 861 and 865 from October 31 through December 9,
         2011. The call populations were 21,680 and 11,992 for Applications 861 and 865,
         respectively. Based on the statistician’s advice, we selected a stratified random sample of
         150 recorded telephone calls (75 from each Application). A random sample was used
         because we intended to project the results of our review to the call populations. For
         projecting the results to the population, a 95 percent confidence level was used along

1
  See Appendix VIII for a glossary of terms.
2
  JOC management advised us that due to configuration and other technical problems not all calls are recorded. To
ensure statistical validity for quality reviews, the IRS requires at least 90.1 percent of the total calls be recorded.
3
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 10
                         Improved Toll-Free Telephone Services Should
                             Make It Easier for Taxpayers to Obtain
                           Assistance During a Correspondence Audit



       with observed sample error rates of 10.6667 percent for Application 861 and 8 percent
       for Application 865.
VI.    Evaluated the quality of the Correspondence Examination function telephone service by
       listening to the 150 recorded sample calls and evaluated the quality using the NQRS
       standards. Nine of the 150 calls reviewed were inaudible due to technical recording
       problems but were included in the sample so our results would reflect a more
       conservative estimate. Additionally, we researched the Correspondence Examination
       Automation Support system for the case histories as needed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE Division quality review
practices for evaluating the quality of the telephone services. We evaluated these controls by
interviewing management personnel, reviewing a stratified random sample of recorded calls, and
evaluating NQRS/EQRS review results.




                                                                                       Page 11
                         Improved Toll-Free Telephone Services Should
                             Make It Easier for Taxpayers to Obtain
                           Assistance During a Correspondence Audit



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Alan Lund, Audit Manager
Julia Tai, Lead Auditor
David Hartman, Senior Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                      Page 12
                        Improved Toll-Free Telephone Services Should
                            Make It Easier for Taxpayers to Obtain
                          Assistance During a Correspondence Audit



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 13
                           Improved Toll-Free Telephone Services Should
                               Make It Easier for Taxpayers to Obtain
                             Assistance During a Correspondence Audit



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 35,591 telephone calls will not be returned in FY 2012 (see
    page 6). Our calculation assumes the same error rate of 9.717 percent for all calls in
    FY 2012 and that the call volume for the second half of FY 2012 will be the same as the first
    six months of FY 2012.

Methodology Used to Measure the Reported Benefit:
       We reviewed a statistically valid stratified random sample of 150 of 33,672 calls that the
        IRS recorded from October 31 through December 9, 2011. The sample included 75 calls
        each from telephone Applications 861 and 865. The populations were 21,680 and 11,992
        (total 33,672) calls for Applications 861 and 865, respectively. Nine of the 150 calls
        reviewed were inaudible due to technical recording problems but were included in the
        sample so our results would reflect a more conservative estimate.
       We identified 14 calls (eight and six calls from Applications 861 and 865, respectively)
        where there was no evidence that a return call was made to the taxpayer even though the
        taxpayer either requested a return call or was promised one from a telephone assistor.
        This resulted in an error rate of 10.6667 percent (8/75) for Application 861 and 8 percent
        (6/75) for Application 865. The average sample error rate is 9.717 percent with a
        confidence level of 95 percent.
       Based upon our average sample error rate of 9.717 percent, we estimate that examiners
        did not return 3,272 (9.717 percent x 33,672) calls requested by, or promised to,
        taxpayers in Applications 861 and 865 from October 31 through December 9, 2011. We
        are 95 percent confident that the actual number of calls not returned falls between 1,580
        and 4,964.
       From October 1, 2011, through March 31, 2012, IRS telephone assistors for Applications
        861 and 865 answered 124,115 and 56,954 calls, respectively. Assuming the same call
        volume for the second half of FY 2012, we estimate the call volumes for FY 2012 to be
        248,230 and 113,908 for Applications 861 and 865, respectively.

                                                                                           Page 14
                       Improved Toll-Free Telephone Services Should
                           Make It Easier for Taxpayers to Obtain
                         Assistance During a Correspondence Audit



   To forecast the potential number of telephone calls the IRS will not return in FY 2012,
    we multiplied the error rate by the estimated annual call volume for each Application
    then totaled the two applications to arrive at 35,591.
    Application 861: 248,230 calls x 10.6667 percent = 26,478 calls
    Application 865: 113,908 calls x 8 percent = 9,113 calls




                                                                                      Page 15
                                  Improved Toll-Free Telephone Services Should
                                      Make It Easier for Taxpayers to Obtain
                                    Assistance During a Correspondence Audit



                                                                                                Appendix V

                Summary of Expected Benefits From
            the Intelligent Contact Management System

This appendix provides a summary of the benefits that the SB/SE Division Correspondence
Examination Program anticipates from implementing the ICMS. As outlined in Figure 1, the
intended benefits are focused largely on making it easier and faster for taxpayers to obtain
information and assistance from the IRS. Callers to the Correspondence Examination function
toll-free number may choose to use a self-service menu of automated services or to speak with a
telephone assistor. During FYs 2011 and 2012,1 the ICMS answered2 about 832,000 calls and is
the principal contact point for individual taxpayers involved in a correspondence examination.
                                           Figure 1: ICMS Benefits

          Intended Benefit                                             Description
    Provide greater economies of        Calls are routed to any one of five call sites where telephone assistors
    scale to provide one-stop           can access taxpayers’ electronic case files to help answer more of
    service.                            their questions on the first call.

    Provide the capability to
                                        The JOC monitors and manages call traffic and telephone assistor
    quickly shift resources to meet
                                        availability in real-time to help ensure consistent delivery of services.
    demand.

    Standardize hours of
                                        Telephone schedules are set up at call sites to ensure taxpayers have
    operations, regardless of
                                        access from 7:00 a.m. to 7:00 p.m. in their local time zone.
    taxpayers location.

                                        Action notes should be created in the system when return calls are
    Generate “action notes” so
                                        requested by, or promised to, taxpayers. Examiners are expected to
    calls are timely returned.
                                        act on the notes within three business days.

    Use telephone scripts to            Informational scripts for taxpayers include topics such as entering
    educate taxpayers.                  into an installment agreement and obtaining representation.

    Enable call transfer                The system can transfer incoming calls to multiple telephone systems
    capabilities to and from other      within the IRS if the taxpayer is involved in other matters with the
    IRS operations.                     IRS, such as making tax payments.


1
    These data are through March 2012.
2
    Consists of calls answered by telephone assistors and informational messages.
                                                                                                         Page 16
                             Improved Toll-Free Telephone Services Should
                                 Make It Easier for Taxpayers to Obtain
                               Assistance During a Correspondence Audit




       Intended Benefit                                       Description
                                  For taxpayer convenience and to help reduce the number of calls
 Automated services to handle
                                  telephone assistors must handle, callers may access automated
 routine requests for
                                  services at any time in English or Spanish to obtain such information
 information.
                                  as IRS mailing addresses and fax numbers.

 Improve service to               Calls are routed to the first available Spanish-speaking telephone
 Spanish-speaking taxpayers       assistor. When taxpayers wait for an extended period on the Spanish
 through corporate utilization    line, calls are routed to the English line and the telephone assistor
 of bilingual resources.          would use the Over the Phone Interpreter Service.

                                  SB/SE Division Examination function believes the LOS, customer
 Improve business measures.
                                  satisfaction, and quality of telephone service will improve.

                                  The JOC’s real-time monitoring of telephone traffic volume and wait
 Provide a consistent level of
                                  time enables the SB/SE Division to adjust telephone staffing to
 service to taxpayers.
                                  achieve the IRS’s LOS goal.
Source: SB/SE Division Examination function management.




                                                                                                Page 17
                              Improved Toll-Free Telephone Services Should
                                  Make It Easier for Taxpayers to Obtain
                                Assistance During a Correspondence Audit



                                                                                             Appendix VI

                  Overview of the Customer Service
                    Quality Measurement System

The Office of Quality Performance Measurement within the SB/SE Division Campus
Compliance Service function has responsibility for monitoring the statistical validity of the
sample for quality review and providing guidance to reviewers and managers. The SB/SE
Division evaluates the quality of telephone service to taxpayers against five standards. Each
standard has several key elements that elaborate on the overall standard. Figure 1 summarizes
the standards and associated key elements.
                     Figure 1: Summary of the SB/SE Division’s
                  Quality Measurement System on Telephone Service

   No.        Standard                   Key Elements                               Overview
                                 Handle the call talk time
                                  efficiently.                        This standard evaluates whether the
                                                                      time spent on the telephone was
                                 Take timely actions to resolve
                                                                      productive in terms of understanding
                                  the case or issue.
     1        Timeliness                                              and resolving the taxpayer’s issues. It
                                 Ensure length of hold time, if      also assesses whether the amount of
                                  any, was appropriate based on       time, if any, the taxpayer was placed
                                  complexity of the issues            on hold was appropriate.
                                  involved.
                                 Open the call in a professional     Telephone assistors are expected to
                                  manner.                             provide quality assistance in every call
                                                                      by identifying the issue and resolving
                                 Provide courteous service to the
                                                                      it to the extent possible, maintaining
     2      Professionalism       taxpayer. Listen to the taxpayer
                                                                      professional courtesy, and making sure
                                  in an effective manner.
                                                                      at the end of the call that the taxpayer
                                 Close the contact with the          knows what he or she needs to do
                                  taxpayer appropriately.             next.

                                                                      Every attempt should be made to
                                                                      satisfy the taxpayer’s questions in an
                                 Provide the taxpayer with the
                                                                      accurate and complete manner. This
     3    Customer Accuracy       correct response or resolution to
                                                                      includes accessing and thoroughly
                                  the case or issue.
                                                                      researching available databases to
                                                                      provide the best resolution possible.




                                                                                                         Page 18
                          Improved Toll-Free Telephone Services Should
                              Make It Easier for Taxpayers to Obtain
                            Assistance During a Correspondence Audit



 No.        Standard                    Key Elements                               Overview
                                Provide employee                    Among other things, this standard
                                 identification.                     evaluates whether telephone assistors
                                                                     are following the IRS’s taxpayer
                                Follow disclosure rules.            authentication procedures. This
        Regulatory/Statutory
  4                             Avoid unauthorized disclosure       generally includes securing and
             Accuracy
                                 to third party, if applicable.      verifying the name, Social Security
                                                                     Number, current address, filing status,
                                Interpret and apply tax law         and date of birth.
                                 correctly.

                                Identify and address all of the     There are times when telephone
                                 taxpayer’s issues.                  assistors need to transfer calls to
                                                                     another area for resolution. This
                                Explain the expected IRS time       standard evaluates if the guidelines for
  5     Procedural Accuracy      periods and deadlines and their     call transfers were followed. It also
                                 relation to the taxpayer inquiry.   assesses if the call was properly
                                Transfer call as appropriate.       summarized, including reiterating any
                                                                     actions items that need to be
                                                                     completed.
Source: SB/SE Division Examination function management.




                                                                                                        Page 19
                          Improved Toll-Free Telephone Services Should
                              Make It Easier for Taxpayers to Obtain
                            Assistance During a Correspondence Audit



                                                                                      Appendix VII

Customer Satisfaction Telephone Survey Questions

                   Figure 1: Survey Questions Asked of Taxpayers

 Rate your overall satisfaction with the service you received during this call.
 Rate your satisfaction with the courtesy of the representative who handled your call.
 Rate your satisfaction with the professionalism of the representative who handled your call.
 Rate your satisfaction with the representative’s willingness to help you with your issue.
 Rate your satisfaction with the knowledge of the representative.
 Rate your satisfaction with how clearly the IRS representative explained your issue.
 Rate your satisfaction with how well the IRS representative listened to your concerns.
 Rate your satisfaction with how clearly the IRS representative explained the next steps in
 resolving your discrepancy.
 Rate your satisfaction with the length of time it took to complete your call from when you first
 reached a representative.
 Did you feel the call time you spent on the telephone with the representative was too long, too
 short, or about right?
 What was the reason you called today?
 What could the IRS do to make the letter or notice you called about clearer?
 Including today, how many times have you called and discussed the particular issue raised in
 your notice or letter with an IRS representative?
 How many minutes did you spend on this call today, including any time on hold but not including
 the time spent answering this survey?
 Did the IRS representative answer all your questions today?
 What information did you need that the IRS representative did not provide?
 Will the information you received today eliminate the need for further calls on this issue?
 Overall, how well did the IRS meet your expectations during your call today?
 Please share how the IRS can improve so that it would have better met your expectations during
 your call today.
Source: SB/SE Division Examination function management.



                                                                                                    Page 20
                           Improved Toll-Free Telephone Services Should
                               Make It Easier for Taxpayers to Obtain
                             Assistance During a Correspondence Audit



                                                                                  Appendix VIII

                                 Glossary of Terms

Application 861 – This is an English-speaking line that handles questions on examinations,
including Earned Income Tax Credit audits.
Application 865 – This is an English-speaking line that handles individual tax account
questions.
Call Center – A physical place where customer and other telephone calls are handled by an
organization.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Correspondence Examination Automation Support – This system is a suite of web-based
applications developed to enhance the correspondence examination process. The system
provides a centralized database of documents such as examiner notes from conversations with
the taxpayer, procedures used by the examiner, and other data the examiner obtained and used
during the audit to support his or her conclusion about whether to assess additional tax.
Embedded Quality Review System – A system designed to assist managers in measuring
employees’ individual performance as it relates to case activities. Employee performance is
evaluated against attributes that are designed to identify actions that move cases toward closure
through appropriate and timely case activity.
Joint Operations Center – The IRS office that serves as the central control organization for all
of the IRS’s toll-free telephone routing. It monitors call volume and traffic, and adjusts the
telephone staffing level as needed to meet the SB/SE Division’s LOS goal.
Level of Service – This rate is the quotient of the total calls answered divided by the net of total
calls received less calls abandoned during the informational message phase.
National Quality Review System – A system used by national quality reviewers to capture
national program review data obtained through case reviews to report official organizational
business quality results. National quality reviewers use the same attributes as done for EQRS
reviews.




                                                                                             Page 21
         Improved Toll-Free Telephone Services Should
             Make It Easier for Taxpayers to Obtain
           Assistance During a Correspondence Audit



                                                 Appendix IX

Management’s Response to the Draft Report




                                                        Page 22
Improved Toll-Free Telephone Services Should
    Make It Easier for Taxpayers to Obtain
  Assistance During a Correspondence Audit




                                               Page 23
Improved Toll-Free Telephone Services Should
    Make It Easier for Taxpayers to Obtain
  Assistance During a Correspondence Audit




                                               Page 24
